                                                                    EMPLOYMENT AND TRAINING
                                                                    ADMINISTRATION
                      Office of Inspector General—Office of Audit
Department of Labor




                                                                    EVALUATION OF ALLEGATIONS
                                                                    INVOLVING THE INTER-TRIBAL
                                                                    COUNCIL OF ALABAMA
                                                                    (PROGRAM YEARS 2000-2002)




                                                                                  Date Issued: September 30, 2004
                                                                                  Report Number: 04-04-006-03-355
Department of Labor                                 September 2004
Office of Inspector General
Office of Audit                                     MOST ALLEGATIONS
                                                    AGAINST INTER-TRIBAL
BRIEFLY…                                            COUNCIL OF ALABAMA HAD
                                                    NO MERIT, BUT AGENCY
Highlights of Report Number O4-04-066-              SHOULD IMPROVE
03-355, a report to the Assistant
Secretary, Employment and Training
                                                    FINANCIAL MANAGEMENT
Administration (ETA). September 30,                 and RECRUITMENT
2004.
                                                    WHAT OIG FOUND
WHY READ THE REPORT
                                                    We concluded that 7 of the 13 allegations were
The Intertribal Council (ITC), a nonprofit          not substantiated. However, we found the
organization located centrally in Millbrook,        following financial and programmatic issues:
Alabama, manages the Workforce
Investment Act (WIA) program for Native                •   a lack of participation by some tribes;
Americans in the state. The agency                     •   inconsistent reporting of program
receives all of its funding from the                       expenses;
Department of Labor (DOL) to provide a                 •   inadequate support for participants’
range of employment training and                           eligibility determinations;
supportive services. In PY 2000, DOL                   •   a lack of support for the education credits
awarded ITC a 2-year $462,120 grant                        listed on the ITC Director’s resume;
under the WIA’s Title I Indian and Native              •   weak internal controls over payroll
American (INA) programs. By PY 2003,                       disbursements; and
the grant had increased to over $933,000.              •   no access to ITC’s office building for
ETA’s Division of Indian and Native                        people with disabilities.
American Programs (DINAP), which
administers INA grants, had not done a
                                                    WHAT OIG RECOMMENDED
program review of ITC since 1997. DINAP
said that they did not consider ITC a “high
                                                    We recommended to the Assistant Secretary for
risk” grantee.
                                                    ETA that the agency provide technical assistance
                                                    to the ITC to help it increase participation from
WHY OIG DID THE AUDIT                               some tribes and ensure that ITC:

The OIG evaluated a Hotline complaint to               •   Accurately reports program costs.
determine if allegations made against the              •   Verifies and supports participant eligibility.
ITC by a former board member had merit.                •   [The Board] takes action to either affirm
Several allegations involved wage and                      or remove the Director.
hour violations, misuse of funds, conflict             •   Complies with existing internal controls so
of interest, discrimination acts, and other                that financial transactions are properly
issues that occurred from November 1999                    authorized.
through March 2003.                                    •   Compensates its Director for the
                                                           unauthorized salary reduction of $4,680.
READ THE FULL REPORT
                                                    ITC agreed with most of our findings, but
To view the report, including the scope,            disagreed with our questioning the eligibility of
methodology, and full agency response,              seven sampled participants. Before OIG’s
go to:                                              fieldwork ended, ITC provided documentation of
                                                    building renovations to make their office
http://www.oig.dol.gov/public/reports/oa/2004/04-
04-006-03-355.pdf                                   accessible. Therefore, we made no
                                                    recommendation on this finding.
TABLE OF CONTENTS
________________________________________________________________

Executive Summary.......................................................................................................i

Assistant Inspector General’s Report..........................................................................1

I. Substantiated Allegations and Other Issues Identified........................................2

Finding 1: Limited Program Funds and Older Tribal
            Population Among Factors that Contributed to
            Low Participation by Some Tribes ........................................................ 2

Finding 2: Available Program Funds Were Not Materially Affected by
            Salary Increase. However, Program Costs Were Not
            Consistently Reported on Financial Reports ....................................... 7

Finding 3: Participants’ Eligibility Determinations Were Not
            Always Supported .................................................................................. 9

Finding 4: ITC Director Was Unable to Provide Documentation to
            Support the Statement on Her Resume Claiming 2 Years
            of College Credit .....................................................................................11

Finding 5: ITC Director Was Generally Paid for Time Worked;
            However, Interim Reductions to the Director’s Pay
            Were Not Authorized............................................................................ 13

Finding 6: ITC Office Building Was Not Handicap Accessible…………………14

II. Many Allegations Could Not Be Substantiated ................................................ 15

                 Board Members Are Allowed to Vote at ITC’s Meetings ................. 15

                 Accounting Firm Employed to Prepare ITC’s Financial
                  Reports Also Performed Its Audits ............................................. 15

                 ITC Required Some Applicants to Provide
                  Different Information Than Others
                  for Enrollment ............................................................................ 15
         ITC’s Entire Staff Is Comprised of
          Members from the Same Tribe .................................................................... 16

         ITC Director Violated WIA Conflict of Interest
          Provisions by Serving on the Alabama Indian Affairs
          Commission ..................................................................................... 17

         A Former Employee Filed a Discrimination Lawsuit
          Against ITC .................................................................................................... 17

         Members of the Echota Cherokee Tribe Are Not Eligible for
          ITC Program Assistance................................................................................ 18

Exhibit A: Review of Participants’ Eligibility Determinations............................. 20

Appendix A: Background ......................................................................................... 23

Appendix B: Scope, Methodology and Criteria ..................................................... 25

Appendix C: Acronyms and Abbreviations............................................................ 27

Appendix D: ITC’s Response to Draft Report ........................................................ 29
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




EXECUTIVE SUMMARY
The Office of Inspector General (OIG) has evaluated a complaint made against
the Inter-Tribal Council of Alabama (ITC or Agency) located in Millbrook,
Alabama. The Agency manages the Workforce Investment Act (WIA) program
for Indians and Native Americans in the State.

Our objective was to determine if allegations discussed in the complaint could be
substantiated. A former board member of ITC made several allegations that
generally involved wage and hour violations, misuse of funds, conflict of
interest, discrimination acts, and a variety of other issues that occurred during
November 1999 through March 2003.

We concluded that most of the allegations were not substantiated. Allegations
that were substantiated or other issues that stemmed from allegations in the
complaint involved: lack of participation by some recognized tribes;
inconsistency in reporting program expenses; lack of support for participants’
eligibility determinations; lack of support for the education credits listed on the
ITC Director’s resume; internal control weaknesses over payroll disbursements;
and lack of handicap access to ITC’s building.

We recommend that the Assistant Secretary for Employment and Training
ensure that ITC takes corrective action to resolve these issues. Specifically, we
recommend that ETA:

   •   Provide technical assistance to help ITC find effective ways to encourage
       and promote the program to members of all recognized tribes.

   •   Ensure ITC’s program costs are accurately reported.

   •   Ensure ITC verifies that all participants have satisfied WIA eligibility
       requirements. ITC should also ensure WIA participants’ eligibility
       determinations are properly supported with verifiable information.

   •   Ensure the ITC’s Board takes action to either affirm or remove the Director
       after a complete review of her educational achievements and the events
       leading up to the Director’s employment at ITC.

   •   Direct ITC to comply with its existing internal controls to ensure financial
       transactions are properly authorized and traceable and to compensate the
       Director for the unauthorized salary reduction of $4,680.


U.S. Department of Labor—Office of Inspector General                                  i
Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




     ITC’s Response to Draft Report

     In response to our draft report, ITC’s Project Director generally agreed with
     our findings and recommendations. The Project Director also described
     corrective actions that ITC has begun to take in response to the draft report.

     Auditor’s Conclusion

     ITC’s entire response is included as Appendix D of this report and should be
     considered by ETA’s Grant Officer during the audit resolution process.




ii                                   U.S. Department of Labor—Office of Inspector General
                                                             Report No: 04-04-006-03-355
U.S. Department of Labor                         Office of Inspector General
                                                 Washington, DC. 20210




                         Assistant Inspector General’s Report

Emily S. DeRocco
Assistant Secretary for
 Employment and Training
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We evaluated a complaint made against the Inter-Tribal Council of Alabama
(ITC or Agency) located in Millbrook, Alabama. The Agency manages the
Workforce Investment Act (WIA) program for Indians and Native Americans in
the State. A former board member of ITC made several allegations against the
Agency that occurred during November 1999 through March 2003. Specifically,
the complainant alleged:

    •   All tribes located in the designated 63 counties1 in Alabama were not
        served. Also, only 50 participants were served over a 3-year period.
    •   Funds were limited after ITC increased staff salaries.
    •   Participants were not eligible for WIA Program.
    •   Director worked without pay due to lack of funds.
    •   ITC office building is not handicap accessible.
    •   Advisory Board Members were allowed to vote at ITC’s meetings.
    •   Director did not meet the education requirement for the position.
    •   Accounting firm employed to prepare ITC’s financial reports also
        performed its audits.
    •   ITC required different information for some program applicants.
    •   ITC’s entire staff are members of the same tribe.
    •   Director also serves on the Alabama Indian Affairs Commission.
    •   A former employee filed a discrimination lawsuit against ITC and the
        Director.
    •   The Echota Cherokee tribe was not eligible for ITC services.




1The allegation cites 62 counties; however, based on a 1990 Census Report, a total of 63 counties
were to be served by ITC.

U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                                         1
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


The OIG conducted the evaluation to answer the following question:

    •   Could the allegations against ITC in the complaint be substantiated?

We concluded that 7 of the 13 allegations made against ITC could not be
substantiated. However, we did substantiate four of the allegations as well as
identifying two other financial and programmatic issues that required corrective
action by ITC.

The evaluation was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency. Our
audit scope, methodology, and criteria are detailed in Appendix B.


FINDINGS AND RECOMMEDATIONS

I. Substantiated allegations and other issues identified

We substantiated four of the allegations and identified two other financial and
programmatic issues that required corrective action by ITC. These issues
involved:

           •   lack of participation by some recognized tribes;
           •   inconsistency in reporting program expenses;
           •   lack of support for participants’ eligibility determinations;
           •   lack of support for the education credits listed on the ITC Director’s
               resume;
           •   internal control weaknesses over payroll disbursements; and
           •   lack of handicap access to ITC’s office building.

In these instances, we recommend that the Assistant Secretary for Employment
and Training take steps to ensure ITC takes corrective action.

Finding 1:     Limited Program Funds and Older Tribal Populations Among
               Factors that Contributed to Low Participation by Some Tribes.

The complaint alleged that all tribes in the designated counties of Alabama were
not served by ITC and that ITC only served 50 participants over a period of 3
years. We interviewed the Director and Board members to determine which
tribes should have been served by ITC. We also reviewed ITC’s Plan, as well as
WIA applicants’ files and participant enrollment information to determine the
level of participation of each tribe. Although the allegation had some merit, the

2                                    U.S. Department of Labor—Office of Inspector General
                                                             Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


lack of participation by some tribes was not due to applicants being improperly
denied program services.

According to the Director, ITC provides assistance to members of all state-
recognized and federally-recognized tribes.2 Members of non-recognized tribes
are referred to the State WIA program for assistance. In PY 2003, two additional
tribes (Piqua Sept of Ohio Shawnee and United Cherokee Nation) gained state
recognition and became eligible to receive assistance from ITC.

ITC admitted that it has declined program assistance to some eligible applicants
due to limited funds. As discussed in ITC’s Plan (Description of General
Program Design and Goals), ITC officials state:

        An average number of 50 participants are served in the program at
        any given time. Every year we have to decline applicants that meet
        the requirements of the Intertribal Council of Alabama’s WIA
        program due to our limited available funds.

Despite its limited funding, the Director said that ITC utilizes several sources to
promote its WIA program to all recognized tribes. Promotional sources used by
ITC include:

    •   website for the Indian population of Alabama;
    •   ITC Board Members publicize the program on the reservations;
    •   meetings and pow-wows in rural areas;
    •   Alabama Indian Affairs Commission and State Workforce Investment
        Board publicize the program;
    •   educational institutions are aware of financial aid from ITC; and
    •   advertisement through the media (local newspaper and radio).

Applicants may apply in person or by mail. As previously noted, applicants
from non-recognized tribes, or non-Native individuals are referred to the WIA
programs administered by the State and local Service Delivery Area.

Table 1 below illustrates the tribal population and number of participants ITC
served during PY 2000 through PY 2002.




2 According to the Bureau of Indian Affairs (BIA), Indian tribes that have a legal relationship to

the U.S. Government through treaties, Acts of Congress, executive orders, or other administrative
actions are “recognized” by the Federal Government as official entities and receive services from
Federal agencies. Some tribes are state-recognized, but do not necessarily receive services from
the state.

U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                                     3
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


                                                                       Table 1
                  NUMBER of PARTICIPANTS SERVED by ITC
                                         Program Year
                                     Tribe
              Tribes Served                        2000    2001           2002
                                   Population3
              State-Recognized
              Tribes
              Cherokee of              476           3        1            1
              Northeast AL
              MaChis Creek             328          7         1           1
              Mowa Choctaw            1,598         22        36          30
              Cherokee of              182          0         0           0
              Southeast AL
              Echota Cherokee         4,846         16        18          16
              Star Clan                76           1         0           0
              Federally-
              Recognized Tribes
              Poarch Band (in          792           0        0            2
              AL)
              Lakote Souix             1             0        1            1
              Tobique               unknown          0        1            1
              Houma Nation             57            1        2            1
              Tribes from other
              states
              Living in AL          unknown          1         1           1
              Total                                 51        61          54


Based on the results in Table 1, ITC met its goal of serving a minimum of 50 WIA
participants for each of the years referred to above. However, this is at odds
with the complainant’s claim that ITC only served 50 participants over the same
3-year period. Nonetheless, either none or very few participants were served for
four of the six state-recognized tribes (Cherokee of Northeast, MaChis Creek,
Cherokee of Southeast, and Star Clan).

According to the Director, there is no requirement to serve a minimum number
of participants for any state-recognized tribe in Alabama. The Director also said
that efforts are made to reach out to all tribal members, but not all members seem
to have a desire or need for the services ITC offers. For example, according to the
Director, the Cherokee of Southeast Alabama tribe has an older population who
is mostly interested in retirement rather than improving educational and job
training skills.



3 The population of American Indian and Alaska Native Tribes located in Alabama was obtained

from the U.S. Census Bureau, Census 2000, special tabulation. Internet release date: September
2002.
4                                    U.S. Department of Labor—Office of Inspector General
                                                                   Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




By contrast, the Mowa Choctaw and Echota Cherokee tribes have experienced
greater participation in ITC’s WIA program. The Director said that these tribes
have much larger and younger populations. Younger members tend to have a
greater need for educational and job training assistance than older members.

We also interviewed Board members from the Star Clan and Cherokee of
Southeast Alabama tribes. As illustrated in Table 1, WIA participation by
members of theses tribes was very low. These board members said among the
factors contributing to the low participation rate of tribal members are small
tribal population; long travel distance to the Agency, and personal pride of some
members prevents them from accepting services offered. We did not interview
the Board representative from Cherokee of Northeast Alabama, who was ill
during the time of our fieldwork. By the Director’s account, the Cherokee of
Northeast Alabama tribe has not provided a representative on the Board for at
least 2 years despite the Director’s efforts to get such representation.

Another possible contributing factor for the lack of participation by other tribal
members is that many Native Americans are still not aware that the program
exists. As explained in its Plan, ITC officials faced difficulties in reaching many
members who may be in need of assistance but do not know the program exists.

Applicants were not improperly denied program services. We also reviewed
all (18) applications from ITC’s “Rejected” file to determine the reason(s) for
rejection, and if applicants were improperly denied program assistance. The
applications reviewed were submitted from a variety of tribes in the State. We
determined these applications were rejected or not initially processed due to:

   •   12 - lacked sufficient documentation;
   •    2 - lacked training funds
   •    1 - selected training in an occupation not in demand (cosmetology);
   •    1 - wanted 4 year course; and
   •    2 - did not meet income level requirements.

Two of the 18 rejected applicants later enrolled in the program after providing
sufficient documentation. The two applicants not accepted in the program due
to lack of funds were told to reapply in 45 days, but did not do so. Notices of
insufficiency and ineligibility were mailed to the remaining applicants who did
not satisfy the program eligibility requirements.

The allegation was not substantiated, as we found no evidence that eligible
applicants were improperly denied access to program services. In addition, the


U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                       5
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


Agency met its goal of serving a minimum of 50 participants per program year.
Despite ITC’s promotional efforts, the Agency was challenged to increase
participation by tribal members in 4 of the 6 state-recognized tribes under ITC’s
jurisdiction. In addition to limited funds, other factors such as older tribal
populations and long travel distance to the Agency for some tribal members
further complicated ITC efforts to increase participation for some recognized
tribes.

Promotional efforts by ITC will be even more critical now that the Piqua Sept of
Ohio Shawnee and United Cherokee Nation tribes have been recognized by the
State. Given the importance of a viable strategy to broaden participation among
members of all recognized tribes, ITC will likely require some assistance from
ETA.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training
provide technical assistance to help ITC find effective ways to encourage and
promote the program to members of all recognized tribes.

Auditee’s Response:

ITC implicitly agreed with OIG’s finding. ITC stated that it plans to use other
sources such as the Alabama Advertising Agency, local cable stations, and
Auburn University web site as other avenues for advertisement. Members of
ITC’s Council agreed to make a major effort to inform their tribal members of the
Program.

Auditor’s Conclusion:

We believe the promotional efforts planned by ITC and the additional efforts by
Council members could improve participation among all tribal members. We
hope that tribal members are fervently encouraged to take full advantage of the
Program services and benefits. The recommendation remains unchanged;
however, ETA should consider ITC’s response to our draft report when issuing
its final determination.




  ____________________________________________________________________________
                               U.S. Department of Labor—Office of Inspector General
6                                                     Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




Finding 2:        Available Program Funds Were Not Materially Affected by
                  Salary Increase. However, Program Costs Were Not Consistently
                  Reported on Financial Reports.

The complaint alleged that no funds were available to serve participants after
ITC increased staff salaries in August 2002. Results from the information
gathered did not substantiate the allegation. However, we found that certain
program costs were not consistently reported on ITC’s financial reports.

The ITC Board approves all salary increases for ITC’s staff. The Director’s salary
increase ($4,575 per year) was approved in July 2002 and was effective August
2002. This was the first time the Director’s salary had been increased since
November 1994, according to the Board’s minutes and payroll records. The
Director’s salary increase represents about 2 percent ($4,575 of $234,844) of the
total available funds. No other salary increases were authorized during PY 2002.

We also reviewed ITC’s financial records for the months of July 2002 through
September 2002, as the complainant claimed that no funds were available less
than one month after staff salaries increased in August 2002. We did not find an
unreasonable decrease in the amount of available funds during this time period.
As of September 2002, a significant amount of funds was available for program
services. Table 2 provides the amount of available funds and the expenses for
the time period in question.
                                                       Table 2
                                        Program Expense
                   Expense                    As of
                   Category       July      August    September
                                         2002          2002           2002
                       Management
                       Services         $1,328        $2,072         $1,602
                       Program
                       Services         $14,859      $14,614         $15,796
                       Total
                       Available       $218,657      $201,971       $184,573



As we previously noted, ITC met its annual goal of serving a minimum of 50
participants in PY 2002. Based on ITC’s Revenue and Expense Statement, we
determined the Agency spent $99,966 (42.6 percent) of the $234,844 on classroom
training, work experience, and support services. ITC also spent $100,902 (42.9
percent) for staff salaries.4 A total of $29,950 (12.8 percent) was spent for other


4   The staff salaries contain both management services ($14,541) and program cost ($86,361).

U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                                     7
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


operating costs. The balance of $4,026 (1.7 percent) remained for closeout. We
believe the change in total available funds was reasonable.

Inconsistency in reporting program costs. Because ITC had not prepared an
annual Financial Status Report (FSR) for PY 2002, our initial analysis was based
on the Agency’s general ledger, Statement of Revenue and Expense, and Federal
Tax Form 990 (Return of Organization Exempt From Income Tax) for PY 2002.
We examined these records and found material differences between the
Statement of Revenue and Expense report and Form 990 for individual expense
categories. However, the overall difference was negligible compared to specific
cost category differences. Table 3 illustrates the differences we identified.

                                                            Table 3
                    Inconsistent Reporting of Program Expenses
                            Rev. & Exp. Fed. Tax
            Expense Title    Statement         Form 990         Difference
            Program
            Services             $206,178         $171,789          $34,389
            Management
            Services              $24,640          $59,737          ($35,096)

            Total Expense        $230,818         $231,526            $707



We determined the differences noted above were due to the way in which the
Director’s salary was recorded on each financial report. We found the Director’s
entire salary ($46,967) was reported as management services on Form 990. By
contrast, only $14,541 was reported as management services on the Statement of
Revenue & Expense report. Conversely, the Director’s salary was similarly
recorded for program services. According to the Director, the accounting firm
employed by ITC is responsible for preparing both financial reports based on
raw data (checks, receipts, employee and participant time sheets, etc.) provided
by ITC.

The Director attributes the inconsistency in reporting the salary expense to high
turnover and use of temporary service employees by the accounting firm. The
Director also said that ITC had found other accounting transactions prepared by
the accounting firm that needed to be corrected.

While the allegation was not substantiated, we did identify inconsistencies in the
way ITC reported the Director’s salary on key financial reports that should be


  ____________________________________________________________________________
                               U.S. Department of Labor—Office of Inspector General
8                                                     Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


corrected. Although ITC utilizes an accounting firm for bookkeeping purposes,
ITC is ultimately responsible for the accuracy of its financial reports.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training take
steps to ensure ITC properly reports program costs.

Auditee’s Response:

ITC informed the accounting firm of past inconsistencies and have received
assurances that future reports will be rectified. ITC also stated that it would
change accounting firms if problems continued.

Auditor’s Conclusion:

We believe ITC has taken the proper steps toward resolving this issue, and ETA
should consider ITC’s response to our draft report when issuing its final
determination.

Finding 3:     Participants’ Eligibility Determinations Were Not Always
               Supported.

 The complainant alleged that some participants were not eligible for the WIA
program. From a universe of 90 participants, we reviewed 14 participant files,
and two individual’s correspondence file to verify the participants’ eligibility
determinations. The complainant specifically identified six individuals that the
complainant believed were ineligible (four were actual participants and two
individual never enrolled in the program). We reviewed 10 additional
participant files after identifying discrepancies with 5 of the initial 6 files. (See
Exhibit A - Review of Participants’ Eligibility Determinations).

Based on our review of the 14 participant files, the allegation that some
participants were not eligible for the WIA program was substantiated, as we
determined one participant was ineligible and six participants’ eligibility
questionable.

ITC’s policy provides that participants are eligible for program assistance when
all of the applicable requirements are met:

   •   Proof of Native American heritage;
   •   Meet Low-income families requirement



U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                         9
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama



   •   Proof of Pell Grant for Classroom Training; and
   •   In compliance with Selective Service Act.

We determined 7 of the 14 participants were eligible for the WIA program. Of
the remaining 7 participants, we found that one participant was not eligible.
This participant did not meet the low-income requirement.

Six participants’ files lacked verifiable income and employment documentation.
ITC’s staff relied on applicants’ Federal tax returns to document the income of
the six participants who lacked verifiable information. This information was
usually more than 6 months old and had not been verified by ITC’s staff. The
Director said the Agency lacked the means to verify income information.

Two other individuals, identified by the complainant, did not enroll in the
program. One individual submitted invoices/receipts for reimbursement of
training supplies, even though the individual never enrolled in ITC’s WIA
program. The other individual did not have proof of a Pell Grant at the time of
application. We determined these individuals never enrolled or received any
reimbursements from the program.

The allegation that participants’ eligibility determinations were not always
supported was substantiated. ITC did not utilize reliable information to verify
employment and income information. The ITC Director maintains that ITC was
limited in its ability to obtain more reliable information.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training
ensure that ITC verifies that all participants have satisfied WIA eligibility
requirements, and that WIA participants’ eligibility determinations are properly
documented with verifiable information.

Auditee’s Response:

ITC generally agrees that better documentation is needed to support
participants’ eligibility determinations, and has established a policy that requires
staff to provide additional written documentation into participants’ files.
However, ITC disagrees with OIG’s conclusion for seven sampled participants’
deemed to be ineligible or whose eligibility determinations were questionable.




 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
10                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




Auditor’s Conclusion:

The additional file documentation ITC’s new policy requires should provide
adequate support for participants’ eligibility determinations. However, ITC’s
explanations for the seven participants we deemed to be ineligible or whose
eligibility determinations were questionable were not sufficient enough for us to
reconsider our initial conclusions. Specifically, ITC failed to provide
documentation to support its assertions. Also, the fact that ITC agrees that better
documentation is needed to support participants eligibility determinations lends
support to our conclusions for each of the seven sampled participants. Our
recommendation is unchanged.

Finding 4: ITC Director Was Unable to Provide Documentation to Support the
           Statement on her Resume Claiming 2 Years of College Credit

The complainant alleged that the ITC Director did not have the educational
background that the Director claimed to have on her resume.

The Director’s resume, dated August 1994, presented the following information
regarding her education:

       Education:    Graduate, Boone High School – Orlando, Florida

                       College Credits: Two years
                       Stetson University, Deland, Florida
                       UAB, Birmingham, Alabama
                       University of Oklahoma – CEU
                       Auburn University at Mtg – Master Grantmanship

When we asked the Director about her educational achievements, she stated that
she did not believe she met the 2-year college requirement for the position.
According to the Director she attended three summer sessions at Stetson
University in DeLand, Florida, during the 1960s. The Director did not have any
documentary evidence of her attendance. We contacted Stetson University and
officials at the University stated that they have not retained attendance records
from the 1960s for the type of summer sessions the Director states she attended.

The Director stated that she was recruited by the Board for the position and was
assured by the Board that she met the education requirements for the position of
Director. We received a letter (dated February 26, 2004) from the person who
was the Vice Chairman of the Board when the Director was hired. The former
Vice Chairman stated:

U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                      11
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




       We had been trying to hire a Director since February [1994] of that
       year when the vacancy occurred. We advertised the job, statewide,
       three times in the following months. No applicant qualified until
       August, when we had two that did qualify. One of these applicants
       decided to take a job with the MOWA Band of Choctaw Indians as
       the Housing Director. After reviewing the application of
       [Director’s Name] we agreed that she met all of the requirements
       and the Board voted to hire her.

We find the allegation to be substantiated, as the ITC Director could not provide
evidence that she had completed 2 years of college credits and admitted that she
did not believe she met the 2-year college requirement for the position. We
found no formal evidence of Board meeting minutes or memoranda to
substantiate the contention of the Director that the Board approved her
appointment with knowledge she did not fully meet the education requirement.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training
Administration ensure the ITC’s Board takes action to either affirm or remove
the Director after a complete review of her educational achievements and the
events leading up to the Director’s employment at ITC.

Auditee’s Response:

On September 2, 2004, ITC’s Board voted unanimously to affirm the Director’s
employment after reviewing all of the events leading up to the Director’s
employment.

Auditor’s Conclusion:

ITC’s Board has taken the appropriate steps toward resolving this issue, and ETA
should consider the Board’s actions when issuing its final determination.




 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
12                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




Finding 5:     ITC Director Was Generally Paid for Time Worked; However,
               Interim Reductions of the Director’s Pay Were Not Authorized.

The complainant alleged the Director worked 2 months without pay due to lack
of funds. We interviewed the Director, a representative of the accounting firm
that was responsible for ITC bookkeeping, and reviewed the Board’s minutes
and payroll ledgers for the period PY 1999 through PY 2002. We determined the
allegation was not substantiated; however, we found interim pay reductions to
the Directors salary were not authorized.

According to the Board’s minutes (dated August 30, 1999), the Director requested
leave without pay to care for a family member. The Board approved the unpaid
leave of absence. The Director was on leave without pay from September 24
through October 22, 1999. We examined payroll records for this time period and
determined there were no payroll disbursements for the Director during October
1999.

Interim Reductions to Director’s Pay Were Not Authorized - During our
examination of ITC’s payroll records, we discovered that the Director’s pay from
November 1999 through August 2000 had been reduced by $468 each month (a
total of $4,680). The Director’s biweekly salary during this time period was
reduced from $1,600 to $1,366. According to payroll records, the regular
biweekly salary ($1,600) resumed on September 8, 2000.

The Director said that any changes to the payroll must be in writing and
approved by the Board. Neither the Director nor the accounting firm
representative could explain the interim pay reductions. The Director also
claimed not to have noticed the salary reductions. The Director stated that the
reductions occurred after she returned from leave and while she was
preoccupied with the death of a family member she cared for while on leave.

The allegation was not substantiated. However, unauthorized personnel actions,
such as reductions or increases in payroll, are a significant internal control
weakness.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct
ITC to comply with its existing internal controls to ensure financial transactions
are properly authorized and traceable and to compensate the Director for the
unauthorized salary reduction of $4,680.



U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                       13
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




Auditee’s Response:

ITC has created a form to document all financial transactions regarding
personnel. In addition, the reduction of the Director’s salary was voted on by the
Board but not recorded due to a malfunction in the tape recorder. The Director
has no desire to recover the unauthorized reduction amount of her salary. The
Director believes that the funds were put to better use by assisting program
participants.

Auditor’s Response:

ITC’s decision to use a form to document all financial transactions regarding
personnel may not be adequate to prevent unauthorized transactions from
occurring in the future. Staff and contractors should have a clear understanding
as to who has the authority and under what circumstances personnel changes
should be made. Policy and procedures ITC established in this area will need to
be evaluated for adequacy due the crucial and sensitive nature of personnel
matters. The Director’s desire not to be compensated for the unauthorized
reduction of her salary needs to be properly documented to avoid future claims
against DOL. We continue to recommend that ETA review ITC’s corrective
action.

FINDING 6: ITC Office Building Was Not Handicap Accessible.

The complainant alleged that the ITC’s office building was not handicap
accessible. We inspected the office building and confirmed the building was not
handicap accessible.

As required by 29 CFR 32.28, program facilities receiving Federal financial
assistance must be handicap accessible. The regulation states:

       Each facility or part of a facility constructed by, on behalf of, or for
       the use of a recipient shall be designed and constructed in such
       manner that the facility or part of the facility is readily accessible to
       and usable by qualified handicapped individuals. . . .

As of September 4, 2003, the building was not handicap accessible. However, on
February 24, 2004, the Director provided a copy of an invoice that showed
renovations to the ITC office building, including the installation of two handicap
ramps, had been completed. The ITC office building has been made handicap
accessible therefore, no recommendation is warranted.
 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
14                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




II.    Many allegations could not be substantiated.

We also determined 7 of the 13 allegations in the complaint could not be
substantiated. ITC officials provided plausible explanations to our satisfaction or
information that factually disproved these allegations. Accordingly, in these
instances, no further action is considered necessary.

Board Members Are Allowed to Vote at ITC’s Meetings. The complainant
stated that Advisory Board Members were allowed to vote at ITC’s meetings.
We reviewed the ITC’s bylaws and minutes to determine if this was permissible.

We determine ITC’s bylaws do not make reference to an “Advisory Board.” The
bylaws state that members of the Board serve as policymakers. As previously
indicated, the Board consists of nine members, one member from each of six
state-recognized tribes, and three professional business members. Each member
is entitled to one vote; however, no proxy or absentee ballot is permitted per
Article II, Section 4 of ITC’s bylaws.

Accounting Firm Employed to Prepare ITC’s Financial Reports Also Performed
Its Audits. The complainant alleged that the accounting firm used to prepare
ITC’s financial reports also performed its audits. According to the Director, the
current accounting firm has prepared ITC’s financial records since 1998, and
during this time has never conducted an audit of the Agency.

In response to whether the agency should be audited, the Director referred to
Article VIII, Section 1 of ITC’s bylaws:

       Fiscal records of the Council shall be subject to an annual audit by an
       independent auditor as required by the funding agencies.

As a nonprofit organization, the ITC is subject to audits under Office of
Management and Budget (OMB) Circular A-133 (Audits of States, Local
Governments, and Non Profit Organizations) provided certain requirements are
satisfied. OMB Circular A-133 requires states, local governments and nonprofit
organizations that expend over $300,000 annually in Federal awards be subject to
audit. On average, the ITC has received $233,000 per year in Federal awards. As
a result, ITC is not required to obtain an audit.

ITC Required Some Applicants to Provide Different Documentation than
Others for Enrollment. The complainant alleged that ITC required some
applicants to provide different documentation than other applicants in order to
enroll in the WIA program. According to the complainant, ITC requested one

U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                       15
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


applicant to provide evidence of the tribe’s 501(c) status5 as proof of being a
member of a state-recognized tribe.

The ITC Director stated that applications are provided to anyone requesting
admission to the WIA program. Also, ITC staff utilizes a checklist to ensure all
applicants complete the same application package for the Program. The Director
also stated in some instances ITC requests a notarized statement from employers
or childcare providers when applicants are unable to provide the information
themselves.

We found no evidence to support that ITC unreasonably required different
information from certain WIA applicants. No further action is considered
necessary.

ITC’s Entire Staff Is Comprised of Members from the Same Tribe. The
complainant alleged that ITC’s entire staff is comprised of members of the Echota
Cherokee tribe, which the Director confirmed. Given the appearance of
preferential treatment, we reviewed the recent hires and the method for hiring.
We found nothing in ITC’s policies that prohibited this hiring practice. In fact,
the Board approved the hiring of all ITC staff members.

ITC has three staff members (Program Director, Management Information
Specialist [MIS]/Secretary, and an MIS/Assistant Secretary). The Council’s
minutes, dated February 1994 and July 2003, indicated that the Director and
Assistant Secretary positions were advertised in the local newspaper and among
the Board tribal members. Two applications for the Director’s position and one
application for the Secretary position were received.

In August 1999, the previous MIS/Secretary (member of another tribe) resigned
and the Board temporarily assigned a WIA Work Experience participant (who is
the current Secretary) to the position. In January 2000, the Board made the
position permanent.

The allegation implies that it was improper for ITC to employ its entire staff from
a single tribe (Echota Cherokee tribe). The allegation was not substantiated, as
we found no evidence to suggest that hiring ITC’s staff from a single tribe
violated the Agency’s policy. Further, we found the positions were advertised
and these individuals were hired with the approval of ITC’s Board.




5A nonprofit organization
 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
16                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


ITC Director Violated WIA Conflict of Interest Provisions by Serving on the
Alabama Indian Affairs Commission. The complainant alleged that the
Director serves as the representative of the Echota Cherokee tribe on the
Alabama Indian Affairs Commission (AIAC). The complainant contends this
violated conflict of interest provisions under WIA or possibly some other
authority. The Director, who is also the Chairman of the Echota Cherokee tribe,
serves as the tribal representative on the AIAC. The Director said AIAC is a state
agency whose members are appointed by the Governor. In addition, there is no
business relationship between the two organizations.

We reviewed WIA regulations to determine if the Director is prohibited from
serving on other Native American commissions. According to Administrative
Provisions under Title I of the Workforce Investment Act;

       Neither membership on the State Board, the Local Board, the Youth
       Council nor the receipt of WIA funds to provide training and related
       services, by itself, violates conflict of interest provisions.

We also reviewed the ITC’s bylaws and found no provisions that prohibit the
Director from serving on other Native American commissions.

A Former Employee Filed a Discrimination Lawsuit Against ITC. The
complainant stated that a former employee filed a discrimination lawsuit against
ITC and the Director. While the allegation or statement is true, we determined
that the lawsuit was properly dismissed.

The file showed that a former employee of ITC filed a complaint with the Equal
Employment Opportunity Commission (EEOC) claiming discrimination based
on race. EEOC dismissed the case on May 23, 1997. The complainant
subsequently filed the complaint with the:

   •   U. S. District Court for the Middle District of Alabama;
   •   U. S. Court of Appeals for the 11th Circuit; and
   •   U. S. Supreme Court.

ITC prevailed in each attempt by the complainant of the lawsuit to get a
favorable judgment. On July 9, 2001, the U. S. Court of Appeals concluded:

       … that [Complainant] claim against the AIC [Alabama Inter-Tribal
       Council], and the individual board members should have been
       dismissed, as Indian sovereign immunity protects them from
       claims alleging race discrimination against non-Indian employees
       in favor of Indian employees when the employment concerns tribal

U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                     17
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


       self governance, reservation administration and other intramural
       Indian matters.

On May 13, 2002, the U. S. Supreme Court refused to hear the complainant’s case.

Members of the Echota Cherokee Tribe Are Not Eligible for ITC Program
Assistance. The complainant alleged that the Echota Cherokee tribe was
dissolved, suggesting that members of the Tribe were not eligible to receive
services from ITC. We interviewed the Director and obtained information from
the Echota Cherokee tribe to determine its status as a state-recognized tribe.

The Echota Cherokee tribe was incorporated and gained state recognition in
April 1981. In June 1993, the Tribe changed its name to the Echota Cherokee Tribe
of Alabama, Inc. Not aware that the name change of the tribe was only to
accommodate the new entity structure, the complainant believed that Echota
Cherokee tribe had been dissolved, and could no longer participate in ITC’s WIA
program. We are satisfied that the Echota Cherokee tribe remains a state-
recognized tribe, and is eligible to participate in ITC WIA Program.




Elliot P. Lewis
March 11, 2004




 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
18                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




EXHIBIT




U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                               19
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


                                                                              Exhibit A
         Review of Participants’ Eligibility Determinations
           Sample        Not                          Not          Eligibility
            No.6       Enrolled      Eligible       Eligible      Questionable
              1                                                        X
              2                                                        X
              3                          X
              4                                                           X
              5                                                           X
              6                                                           X
              7                          X
              8                          X
              9                          X
             10                          X
             11            X
             12                          X
             13            X
             14                                         X
             15                                                           X
             16                          X
          TOTALS            2            7              1                 6

Not Enrolled
      Sample 11 (Not a Participant - Identified by Complainant)
      – Individual did not enroll in WIA program; Submitted invoices and
      receipts after completing the Police Academy. No financial assistance was
      provided.

       Sample 13 - Never enrolled in WIA program - Identified by Complainant.

Not Eligible
       Sample 14 – Employed and high income.

Eligibility Questionable
       Participant’s eligibility is questionable due to lack of sufficient
       documentation.




6 Random sample numbers were 1 through 10; the complainant referred sample numbers 11
through 16.
   ____________________________________________________________________________
                                   U.S. Department of Labor—Office of Inspector General
 20                                                           Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




APPENDICES




U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                               21
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




            <THIS PAGE INTENTIONALLY LEFT BLANK>




 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
22                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


                                                                                 Appendix A



BACKGROUND

OIG’s Involvement

The evaluation resulted from an OIG “Hotline” complaint from a former board
member of ITC. The Atlanta Regional Office evaluated the allegations and our
conclusions are discussed in the “Findings and Recommendations” section of
this report.

ITC’s Program

ITC was formed in 1991 under Title IV of the Job Training Partnership Act
(JTPA), Native American Programs. The Program was reestablished under Title
I of the WIA as the Indian and Native American (INA) programs. The purpose
of INA programs is to support comprehensive employment and training
activities for Indian, Alaska Native and Native Hawaiian individuals to develop
their academic, occupational and literacy skills, to make these individuals more
competitive in the workforce, and to promote the economic and social
development of Native communities.

The Agency is centrally located in Millbrook, Alabama, and is designated to
serve 63 of the 67 counties in the State. As of February 2004, ITC reportedly
served 927 Native Americans since it was established. Services offered by ITC
include classroom training, work experience, on-the-job training, and other
supportive services. A nine member Board7 supports ITC in developing the
Agency’s policies. The Board consists of one representative from each of the six
state-recognized tribes within ITC, and three professionals from the business
community.

The ITC is a nonprofit organization and receives all of its funding directly from
the U. S. Department of Labor (DOL). In Program Year (PY) 2000, the Agency
was awarded a $462,120 grant to administer a 2-year Comprehensive Service
program under WIA. The grant amount increased by $234,844 and $236,112 in
PY 2002 and PY 2003 respectively.



7Bylaws state a nine member Council; however, this report refers to the Council as Board per the
allegation.

U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                                   23
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




                                                               Appendix A (Continued)
ETA’s Oversight

ETA’s Division of Indian and Native American Programs (DINAP) administers
over 186 grants. The last program review of ITC by DINAP was in 1997.
Program reviews are scheduled based on “high risk and dollar amount” of the
grant. The DINAP does not consider ITC as “high risk.”




 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
24                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




                                                                          Appendix B



SCOPE, METHODOLOGY AND CRITERIA
Scope and Methodology

Our evaluation primarily focused on allegations against ITC that occurred
during PY 2000 through PY 2002. However, we examined other issues outside of
the evaluation period that came to our attention after we began fieldwork. We
examined ITC’s Comprehensive Service Plan (or Plan), policies and procedures,
employee records, and financial reports for compliance with applicable laws and
regulations. We interviewed the complainant to obtain additional information
and to ensure we had a clear understanding of each allegation listed in the
complaint. We interviewed ITC’s board members, Director, staff members, and
representatives of the accounting firm employed by ITC to obtain information
that might assist us in achieving our objective. We also interviewed DOL’s
Project Manager responsible for the oversight of ITC’s activities and reviewed
other related material provided by the Manager.

We examined all applications that were “rejected” by the Agency to determine
whether any applicants were improperly denied access to program services. To
verify participants’ eligibility determinations, we reviewed a total of 14
participant files, and two files of individuals who we later determined never
enrolled in the program. The complainant referred 6 of the 16 participants,
including the two individuals who never enrolled in the program. We randomly
selected 10 additional files, from a universe of 90 files, after discovering
discrepancies in the original six files referred by the complainant. Finally, we
examined controls over payroll disbursements to determine if disbursements
were correct and properly authorized.

The evaluation was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency. Our
evaluation began on August 20, 2003, and continued through March 11, 2004.




U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                       25
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


                                                               Appendix B (Continued)
Principal Criteria

Section 166 of the WIA authorizes programs to serve the employment and
training needs of Indians and Native Americans. Requirements for these
programs are set forth in the WIA regulations at 20 Code of Federal Regulations
(CFR) Part 6688.

ITC’s bylaws provide the general powers of the Board as policy makers. The
bylaws also detail voting rights on the Board and describe the Board’s fiscal
responsibilities.




8
  20 CFR, Part 668, Indian and Native American Program Under Title I of the Workforce
Investment Act.
   ____________________________________________________________________________
                                       U.S. Department of Labor—Office of Inspector General
 26                                                            Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


                                                                          Appendix C



ACRONYMS AND ABBREVIATIONS
       AIAC           Alabama Indian Affairs Commission

       CFR             Code of Federal Regulations

       DINAP           Division of Indian and Native American Programs

       DOL             U.S. Department of Labor

       ETA             Employment and Training Administration

       FSR             Financial Status Report

       ITC             Inter-Tribal Council of Alabama

       JTPA            Job Training Partnership Act

       MIS             Management Information Specialist

       OIG             Office of Inspector General

       OMB             Office of Management and Budget

       WIA             Workforce Investment Act




U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                       27
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




            <THIS PAGE INTENTIONALLY LEFT BLANK>




 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
28                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama


                                                                          Appendix D

RESPONSE TO DRAFT REPORT
Attached is a copy of ITC’s complete response to each of the findings in the draft
report. Due the length ITC’s response to some of the findings, the report
contains excerpts of its response to each findings.

ITC also provided additional information for each of the participant files we
reviewed. This information has not been included due the privacy act
consideration but is available upon request to authorized parties.




U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                       29
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




                                                               Appendix D (Continued)




 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
30                                                    Report No: 04-04-006-03-355
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




                                                               Appendix D (Continued)




U.S. Department of Labor—Office of Inspector General
Report No: 04-04-006-03-355                                                        31
Evaluation of Allegations Involving the Inter-Tribal Council of Alabama




                                                               Appendix D (Continued)




 ____________________________________________________________________________
                              U.S. Department of Labor—Office of Inspector General
32                                                    Report No: 04-04-006-03-355
